<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?
 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES
                    JACK KINGSTON, Georgia, Chairman
 TOM LATHAM, Iowa                   SAM FARR, California
 JO ANN EMERSON, Missouri           ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        SANFORD D. BISHOP, Jr., Georgia
 CYNTHIA M. LUMMIS, Wyoming         MARCY KAPTUR, Ohio              
 ALAN NUNNELEE, Mississippi         
 TOM GRAVES, Georgia                

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Martin Delgado, Tom O'Brien, Betsy Bina, and Andrew Cooper,
                            Staff Assistants
                                ________
                                 PART 5

                     FOOD SAFETY INSPECTION SERVICE

                                   S

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 66-792                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\        MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia            PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia             NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri           JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida            LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana             SAM FARR, California
 JOHN R. CARTER, Texas              JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana        CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California            STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                 SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio         BARBARA LEE, California
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota         
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
 CYNTHIA M. LUMMIS, Wyoming         
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2012

                              ----------                              --
--------

                                           Tuesday, March 15, 2011.

                     FOOD SAFETY INSPECTION SERVICE

                               WITNESSES

ELISABETH HAGEN, UNDER SECRETARY FOR FOOD SAFETY, U.S. DEPARTMENT OF 
    AGRICULTURE
ALFRED ALMANZA, ADMINISTRATOR, FOOD SAFETY AND INSPECTION SERVICE, U.S. 
    DEPARTMENT OF AGRICULTURE
MICHAEL YOUNG, BUDGET OFFICER, U.S. DEPARTMENT OF AGRICULTURE

                            Opening Remarks

    Mr. Kingston. The committee will come to order.
    First of all, let me welcome you and your panel. And, Dr. 
Hagan I will let you introduce your folks formally.
    I really don't have much of an opening statement, but I 
wanted to say--hello, Mr. Farr.
    Mr. Farr. Good morning.
    Mr. Kingston. We heard your footsteps, and decided to go 
ahead and tap the gavel.
    So anyway, your budget has a net decrease of $7 million. We 
are pleased to see that. I know that you've got mathematically 
some increases and some decreases to offset that.
    We are very concerned about spending. I have said over and 
over again, neither party has the franchise on innocence in 
terms of our budget woes. But we've got to do something about 
it.
    And so we're looking to make the government leaner and 
smarter and do everything that we can. And with that, I will 
yield to Mr. Farr.
    Mr. Farr. I have no opening statement. Let's get into the 
testimony and questions. Maybe Ms. DeLauro might. She has 
another hearing that she's got to chair. Do you want to take 
that----
    Ms. DeLauro. No. I have no opening statement. I just want 
to welcome Dr. Hagen to the committee. We're delighted that 
you're at FSIS, and I'm sure we all look forward to working 
with you, as you try to move to deal with implementing food 
safety. Thank you.
    Mr. Kingston. Dr. Hagen, go ahead.
    And let me say for the record, also your full testimony has 
been submitted, and we have read it. So if you want to just 
highlight it, you are welcome to.

                         Dr. Hagan's Testimony

    Dr. Hagen. Thank you. I'll do that.
    Good morning, Mr. Chairman, Ranking Member Farr, and 
members of the subcommittee.
    I am Dr. Elisabeth Hagen, Under Secretary for Food Safety. 
I appreciate the invitation to appear before you this morning 
about the status of the Food Safety and Inspection Services 
programs, and in support of the President's fiscal year 2012 
budget request.
    The Food Safety and Inspection Service, FSIS, is the public 
health regulatory agency at the USDA. And we are responsible 
for ensuring that the domestic and imported commercial supply 
of meat, poultry, and processed egg products is safe.
    Preventing foodborne illness is our guiding principle. The 
work that we do affects every American who puts meat and 
poultry on the table.
    Americans rely on the USDA mark of inspection to know that 
their food is safe to eat. And we take that trust very 
seriously. Thanks to the resources that the committee has 
provided, we have been able to significantly improve the safety 
of the products that we regulate.
    We all know and understand the far-reaching benefits of 
food safety. A safe food supply saves lives, but it also 
supports local business and rural development, and has an 
impact on trade and on our overall economy.
    The list goes on and on.
    The meat and poultry industry cannot operate unless FSIS 
inspection activities are performed. Because of our 
Congressional mandate, we directly impact our nation's economy.
    But the most important role that we have is to protect 
public health. The loss of a loved one can never be quantified 
or evaluated monetarily.
    FSIS' legal authority derives from the Federal Meat 
Inspection Act, the Poultry Products Inspection Act, the Egg 
Products Inspection Act, the Humane Methods of Slaughter Act, 
and the regulations that are put forth under these laws.
    These regulations are the foundational tools that we use to 
ensure the safety of the products under our authority, and 
enforce the labeling of meat and poultry products.
    But in 2011, we know more about food safety than we did in 
the past. Science has given us new tools that we need to 
prevent foodborne illness, and it is our investment in science 
that has enabled us to make such progress at the Agency.
    According to the most recent data from the Centers for 
Disease Control and Prevention--CDC--FoodNet, the incidence of 
foodborne illness from key pathogens has declined markedly 
since the surveillance baseline in 1996 to 1998.
    Human illness cases from E. coli O157: H7 have decreased by 
41 percent, Campylobacter by 30 percent, Listeria by 26 
percent, and Salmonella by ten percent.
    Even so, far too many people still get sick and even die 
from the food that they eat, and we must continue the ongoing 
effort to strengthen and support prevention methods within our 
current legal framework.
    We are also working to re-tool the future of food safety. 
We are very excited about launching the Public Health 
Information System, PHIS, which will allow FSIS to collect, 
consolidate, and analyze all of our data to better target 
inspection activities, make more informed decisions, and 
strengthen our capacity to protect American consumers.
    By combining separate systems into one comprehensive, web-
based system, FSIS will have a rigorous public health decision-
maker tool to better predict problems before they occur, and 
respond more quickly to the ones that do happen.
    Building on PHIS, we will realign and make our sampling 
programs more efficient through a laboratory information 
management system, and allow for the achievement of cost 
efficiencies with sampling programs and laboratory testing. We 
expect to save a million dollars through this effort.
    We continue to seek additional scientific data, and this is 
why our fiscal year 2012 budget proposes a $5.5 million 
increase to expand regulatory sampling for key pathogens and 
conduct an additional baseline study.
    This increase will allow for FSIS to improve surveillance 
of foodborne pathogens of human health concern in regulated 
products, develop more timely estimates of pathogen prevalence, 
and ultimately focus resources more efficiently and 
effectively.
    Investing in food safety can save lives, as well as money. 
Estimates of the cost of foodborne illness vary widely; but it 
is clear that they are substantial and amount to billions of 
dollars annually.
    As a medical doctor, I also know that the financial cost of 
medical care for people can be devastating as a burden on these 
families, and that the emotional costs of these tragedies can 
never be quantified.
    FSIS inspection program personnel form the backbone of our 
public health infrastructure in domestic processing and 
slaughter establishments, laboratories, and import houses 
throughout the nation.
    More than 8,000 FSIS inspection program personnel are on 
hand at approximately 6,200 domestic processing and slaughter 
establishments, where they conduct pre- and post-slaughter 
inspection of livestock and poultry, and processed meat, 
poultry, and egg products.
    These program personnel conducted eight million food safety 
and food defense procedures to verify that the systems at all 
federal establishments met the appropriate requirements in 
fiscal year 2010.
    We are working to ensure that our preventive measures 
reduce risk as much as possible, before it ever reaches 
consumers. But we are also using social media and traditional 
outreach methods to inform consumers and spread the word about 
safe food handling.
    In fact, FSIS has partnered with the Ad Council to produce 
a multi-media public service advertising campaign to raise 
awareness of foodborne illness and to actually effect change in 
food-handling behaviors at home.
    This campaign will be unveiled this summer.
    We have also increased our outreach to clinicians and 
public health professionals on actions to reduce the risk of 
foodborne illness.
    I personally am keenly aware that clinicians and public 
health professionals are uniquely positioned to have a positive 
impact on foodborne illness prevention. I am working with these 
professionals to build bridges on this important preventive 
health opportunity, and I will continue to do so in the future.
    So in conclusion, I will say that my job and the mission of 
the nearly 10,000 employees in FSIS is to protect public health 
through food safety.
    That is a commitment and a promise that we make to the 
American public and to consumers worldwide.
    FSIS has made a noticeable impact and has become an 
indispensable guardian of public safety, and we will continue 
to do so.
    I thank you, Mr. Chairman, the Ranking Member, and the 
committee, for this chance to appear before you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6792A.001
    
    [GRAPHIC] [TIFF OMITTED] T6792A.002
    
    [GRAPHIC] [TIFF OMITTED] T6792A.003
    
    [GRAPHIC] [TIFF OMITTED] T6792A.004
    
    [GRAPHIC] [TIFF OMITTED] T6792A.005
    
    [GRAPHIC] [TIFF OMITTED] T6792A.006
    
    [GRAPHIC] [TIFF OMITTED] T6792A.007
    
    [GRAPHIC] [TIFF OMITTED] T6792A.008
    
    [GRAPHIC] [TIFF OMITTED] T6792A.009
    
    [GRAPHIC] [TIFF OMITTED] T6792A.010
    
    [GRAPHIC] [TIFF OMITTED] T6792A.011
    
    [GRAPHIC] [TIFF OMITTED] T6792A.012
    
    [GRAPHIC] [TIFF OMITTED] T6792A.013
    
    [GRAPHIC] [TIFF OMITTED] T6792A.014
    
    [GRAPHIC] [TIFF OMITTED] T6792A.015
    
    [GRAPHIC] [TIFF OMITTED] T6792A.016
    
    [GRAPHIC] [TIFF OMITTED] T6792A.017
    
    [GRAPHIC] [TIFF OMITTED] T6792A.018
    
    [GRAPHIC] [TIFF OMITTED] T6792A.019
    
    [GRAPHIC] [TIFF OMITTED] T6792A.020
    
    Mr. Kingston. Thank you, Dr. Hagen.
    And what I might do, if it's okay with you, Mr. Farr, is 
yield to Ms. DeLauro, if she wants to go ahead and knowing your 
passion on this subject and knowing your schedule, if that 
works for you.
    Ms. DeLauro. Thank you very much. I really want to say a 
thank-you to both my colleagues, to Mr. Kingston, the Chair, 
and Mr. Farr, the Ranking Member, for this courtesy. I really 
appreciate it.
    I'll try to move quickly, if I can get to a couple or three 
questions. And then I have to go over to the Labor HHS 
Subcommittee this morning.
    Again, welcome to you.

                         IMPACT OF H.R. 1 CUTS

    Last year, USDA increased an $18 million increase above 
2010 levels for food safety and inspection service. This was to 
support the initiative to improve the public health 
infrastructure, speed up investigations, response to outbreaks, 
conduct a baseline study on the prevalence of pathogens, expand 
sampling.
    It now appears that you may see another $88 million cut 
over the remainder of the year, if the current appropriations 
bill becomes law.
    I have three questions here:
    What would the specific impact of FSIS' food safety 
activities, if the Agency's budget was cut significantly, as 
specified in H.R. 1?
    How would FSIS implement this reduction in funds? How would 
it impact food safety? How many inspectors would have to be 
furloughed, since meat and poultry plants cannot operate by 
law, without an inspector present? What would that mean for 
meat and poultry plants across the country?
    How many chickens and beef carcasses would be destroyed, 
because the would go uninspected? How many fewer tests for 
foodborne pathogens would be conducted?
    What other food safety activities at FSIS would be 
negatively impacted?
    Dr. Hagen. Thank you for your question, Congresswoman.
    You know, FSIS and the entire Department of Agriculture are 
just as committed to reducing spending and to spending American 
taxpayer dollars more wisely and more efficiently than ever 
before.
    But when you look at an Agency like ours, which, you know, 
has a budget that is largely personnel-dependent--and when I 
say largely, I mean between 80 and 85 percent of our budgetary 
dollars go towards paying salaries and benefits for our 
personnel--and then you look at what proportion of that amount 
actually goes to our frontline personnel, and that's about 82 
percent of that amount, there is not a lot of room to maneuver, 
when you're talking about cuts that are this substantial at 
this point in a fiscal year.
    There is no question that this magnitude of a cut would 
impact our workforce.
    And I think everybody in the room knows about our 
statutorily mandated presence to be in plants. As I said in my 
opening statement, the industry cannot operate without our 
inspection personnel there, by law.
    So if we're talking about that substantial of a cut that 
would impact our personnel, and we might need to look at 
furloughs, obviously that would be a major impact to the 
industry.
    I don't have the specifics for you of exactly what the 
impact would be. We've certainly looked at a number of 
scenarios. But just to remind the committee that, you know, in 
fiscal year 2010, we looked at 147 million head of livestock, 
we looked at nine billion birds. And so an inability to do 
that, because we're not in the plants, would be a major impact 
for the industry, and we would be looking at billions of 
dollars of impact there.
    Ms. DeLauro. Mm-hmm. What I would like to do is get from 
you, the specific numbers. So we'll get to you the list of 
those questions.
    Dr. Hagen. Okay.
    Ms. DeLauro. Because I think it's important to quantify 
what you have said and what, in fact, that means.

                         N-60 SAMPLING PROGRAM

    Let me ask you about the N-60 sampling program. You know 
what the findings are of the inspector general. A sampling 
program to detect E. coli O157:H7 in beef trim at the FSIS is 
not statistically valid.
    And I had requested that OIG report in November 2009, and 
it highlighted the concerns about the efficacy of the testing 
program.
    Now OIG agreed that no method of statistical sampling and 
testing can guarantee that a particular lot of beef trim is 
free from E. coli contamination. The report found that the N-60 
sampling method is not designed to yield the statistical 
precision that is reasonable for food safety.
    You know the letter that I sent to the Secretary last week, 
that asks a series of follow-up questions on the OIG report. I 
want to ask you the same set of questions:
    Do you agree with the OIG's findings that FSIS should 
construct a revised, statistically valid sampling program? 
During a hearing two weeks ago, the OIG indicated that FSIS 
needs to consider implementing a risk-based sampling scheme.
    However, if FSIS does not possess a statistically valid 
sampling program, how does it intend to devise a risk-based 
sampling scheme?
    Given the findings in the OIG report, how confident are 
you, with the quality of the data that has been submitted into 
the system, that will serve as a foundation for the 
implementation of the Public Health Information System, 
directly tied in to PHIS?
    What would be the cost estimate of developing a revised 
statistically valid sampling program? Will the recent proposed 
budget cuts in HR 1 prevent FSIS from accomplishing this?
    I have an add-on. But let me just--I see the time is up, 
but let me just see what we can do here.

                      REGULATORY SAMPLING PROGRAMS

    Dr. Hagen. Okay. And I'll try to tackle each part of that 
question, Congresswoman.
    So I wanted to say first that I know how important this 
issue is to you, and I know how important it is to consumers to 
be able to have confidence in the steps that we take to protect 
them from foodborne illness.
    And we take the report from OIG very, very seriously. I 
think that to some extent, there is a hidden success here. I 
mean, E. coli O157:H7 is an intrinsically difficult pathogen to 
detect. It's at low levels in beef and beef products.
    And in fact, illnesses from O157:H7 have decreased markedly 
through the years. We think that our policies, and we think 
that the efforts of the industry have made for a safer beef 
supply.
    So we find ourselves in this place, sort of a new chapter, 
where we have to look at what we've done before. We've had the 
success that we've had, but we still have a commitment and 
obligation to keep things safe.
    So what's the best program we could design----
    Ms. DeLauro. But should you construct a revised 
statistically valid sampling program, as has been the portion 
their findings?
    Dr. Hagen. I think that sampling is one of the things that 
we're looking at. We're looking at overall our entire approach 
to beef safety, so not just: Is our sampling program what it 
needs to be? But also, what are the things that we can do to 
get better prevention up front, the entire way through 
slaughter and processing? So----
    Ms. DeLauro. Will you be revising a sampling method?
    Dr. Hagen. We are certainly looking at that right now, and 
we will be moving toward an improved sampling method.
    Ms. DeLauro. Mm-hmm. How does this work if you don't a 
sampling system that's valid sampling? How do we move to risk-
based?
    Dr. Hagen. Well, I think that's an important question, and 
that is one of the recommendations of the OIG. And we still 
have some things that we need to come to consensus with OIG on 
about how we address the findings that they presented in the 
report.
    And I think that will be one piece of it, once we come to 
some consensus about those recommendations and how we move 
forward. I think that's going to better inform our approach on 
the next step.
    So it's something that we'll look forward to updating you 
about as we come up with good answers on that.
    Ms. DeLauro. But the question here is: With your PHIS 
system.
    Dr. Hagen. Mm-hmm.

                    PUBLIC HEALTH INFORMATION SYSTEM

    Ms. DeLauro. And I won't put it this way, because it isn't, 
but the best way I can say it--and it's a bit crass, Dr. Hagen, 
is that garbage in, garbage out. And I don't mean that 
literally.
    But if your information going in is statistically flawed, 
it's not good, et cetera, your system then, in dealing with 
risk-based, is not going to be what it needs to be.
    And I think what we need to know on this committee is 
whether or not you're going to take the advice of the IG, and 
take this information, and turn this around, so that:
    One, we don't proceed down a road with a risk-based system 
and a PHIS system that has inherently data that is not the 
appropriate data, or it's not statistically viable, as data in 
the system.
    It would just seem to me that you've got to make some 
immediate decisions, because you got folks out there on the 
PHIS--and I'll put those questions in for the record on PHIS--
but that are studying this, looking at it, trying to get people 
trained in order to deal with it.
    But if the methodology in the sampling is not right, then 
we are once again not going down the right road, in order to 
accomplish what we all would like to accomplish. And that is 
risk-based systems here.
    But without the data, you can't get there.
    Dr. Hagen. Well, as far as how PHIS was built, I think it's 
important to remember that first of all, N-60 is not the only 
sampling program that we have. It's not the only sampling that 
we do to protect public health.
    And the PHIS was really built on a wide variety of data 
sources. And in fact, we laid out this past fall a strategic 
data analysis plan, as well as our public health decision 
criteria. And both of those documents and those strategies were 
built largely on feedback that we received from the National 
Academy of Sciences about our approach.
    Ms. DeLauro. Mm-hmm.
    Dr. Hagen. So while N-60 and the concerns expressed in the 
OIG report are certainly an important component of what we're 
looking at and what we're doing here, they're not the sole 
source of data, or the sole basis upon which we built PHIS.
    But again, we take the recommendations very seriously, and 
there are some very important findings in that report that we 
we'll be moving forward to implement.
    Ms. DeLauro. Final question. When do you anticipate making 
a decision as to whether or not you are going to take their 
advice and change the sampling system?
    Dr. Hagen. Well, we're already working on recommendations 
from the report. I mean, one we've come to consensus with them 
on, and we're looking right now at what those changes in a 
sampling program might be.
    So I can't give you an exact time line, but I know that 
this is going to be something that's important to follow up 
with you on, and I commit to you that we'll do that.
    Ms. DeLauro. Mm-hmm. Please. We would like to be notified 
about the recommendations that have been made, and what has 
been done to change the system.
    Dr. Hagen. Absolutely. And that would be our pleasure.
    Ms. DeLauro. Thank you, Dr. Hagen. Thank you. Thank you 
very much for your indulgence.

                         RISK-BASED INSPECTIONS

    Mr. Kingston. Well, thank you. And as you know, we're all 
interested in risk-based inspection from one angle or the 
other.
    You know, one of the questions that I have as I listened to 
that is: I recall--and I know Ms. DeLauro does--that the 
testimony of Dr. Raymond about risk-based inspection, and how I 
think it was in 2007, they were very gung-ho it, and in 2008 
kind of backed off it a little bit----
    Ms. DeLauro. They didn't have enough information.
    Mr. Kingston. Yes. And so what I'm concerned about isis 
this time frame, is this government bureaucracy moving slowly? Or is 
this smart science moving cautiously?
    Dr. Hagen. If I could just clarify your question, Mr. 
Chairman, are you asking whether we're still moving forward 
with the prior risk-based inspection proposal, and whether 
there's been a delay there?
    Mr. Kingston. No. No. Are we moving slowly because of 
bureaucracy being indecisive? Or are we being cautious because 
of the science?
    And I know both of you have a strong prejudice, and a good 
prejudice for science-based inspection. And you chair the 
Codex----
    Dr. Hagen. That's right, sir----
    Mr. Kingston. And, Mr. Almanza, you've been out on the line 
in Texas, doing this stuff for a long time. So you have a good 
background, solid stuff that could really contribute to this.
    But where are we? Are we going too slow? Or is this the 
right speed?
    Dr. Hagen. Well, I--that in terms of the Public Health 
Information System, this is not really just a data system, this 
is really an infrastructural change in the way that we approach 
the work that we do.
    This is one of the most significant things that we've done 
in some time. And I think that in this case it is more 
important to get it right than to get it done quickly. So it is 
my opinion that we're moving at the correct speed.
    We have had some really very, very valuable input from the 
National Academy of Sciences; we've taken a lot of input from 
the public; we have worked closely with our frontline 
inspection personnel, in terms of testing this system, getting 
feedback from them on what's working and what doesn't.
    So I think that we are moving at the right speed here. I do 
think it's more important to get this right than to push it 
through too quickly.
    Mr. Kingston. Now Dr. Hamburg with FDA said, I believe, to 
Mr. Farr and Ms. DeLauro the other day, talking about 
inspections in general, she said that you get to know who are 
the good actors and those who maybe need a little bit more 
scrutiny.
    Do you agree with that? And is that helpful in designing 
risk-based inspection?

                    PUBLIC HEALTH INFORMATION SYSTEM

    Dr. Hagen. Well, to some extent, yes, I do agree with that. 
I think that what we're doing with PHIS is a bit more of a 
scientific approach than just knowing the good actors and the 
bad actors.
    You know, we will continue to have a basic level of 
inspection. We are not looking to cut back inspection resources 
or attention to any given plant.
    But what PHIS will allow us to do is decide, based on how 
plants are performing, who might need some additional look, who 
might need some additional procedures to look at how well their 
systems are working.
    So yes, it is a matter of knowing the good actors and the 
bad actors. But I think there has to be a scientific framework 
and algorithm behind how you decide who are the good guys and 
who needs a little bit more attention.
    I don't know if Mr. Almanza has something to add to that.
    Mr. Almanza. No, other than we have enough flexibility 
built into PHIS. And I think that goes to Congresswoman 
DeLauro's question, is: There is enough flexibility within the 
system. And we've taken a long time to build a system. And as a 
matter of fact some of the situations that we've dealt with 
along the way have caused us to make some changes.
    And so I think both of you will be pleased with the end 
product, because it's not a matter of the day we implement 
PHIS. That's the way it is. There's going to be some 
flexibility, and that's the way the system was built.

                          FOODBORNE ILLNESSES

    Mr. Kingston. In terms of the decrease, Listeria down 26 
percent, Salmonella ten percent, E. coli 41 percent, what do 
you attribute that to? Did you break down why those decreases 
happened?
    Dr. Hagen. Well, we certainly think that in some 
significant part, it's due to the policies and procedures that 
have been put in place by this Agency and by other regulatory 
bodies, by the industry itself to provide controls----
    Mr. Kingston. Do you know specifically which ones?
    Dr. Hagen. I can't tell you, Mr. Chairman, specifically, 
you know, which interventions or which policies have led to, 
you know, specific decreases.
    I think also that we've done a very good job in consumer 
safety education. I think folks on the fork end of the farm-to-
fork continuum are learning more and more about steps that they 
can take, as well, to avoid foodborne illness.
    Mr. Kingston. But are you doing that because a 41 percent 
decrease in E. coli is significant, and we would be remiss if 
we did not figure out, ``Okay, why did that happen? What worked 
the best? And how do we maximize that? How do we invest in 
that?''
    So are you doing that kind of analysis?
    Dr. Hagen. One of the most important things I think that we 
can do is put metrics in place: How do we know that we have 
succeeded, and what has made us succeed? And that's something 
that we've been focusing on, with the President's Food Safety 
Working Group.
    Mr. Kingston. Let me stop you a minute.
    Dr. Hagen. Mm-hmm.
    Mr. Kingston. I'm a little bit flabbergasted by that. It's 
kind of, ``Well, of course, we're looking into it, Mr. 
Chairman, you're damn right we are.''
    That's what I'm looking for.
    Dr. Hagen. I think that's what I was trying to say, sir. 
But one of the most important things that we can do is hold 
ourselves accountable to what works and what doesn't. We put 
metrics in place and we say how will we know----
    Mr. Kingston. Because I think what we would be interested 
in as a committee is that, you know, short little white paper 
and say, ``This is why foodborne illnesses went from 76 million 
to 48 million. And here is what we did right, and here is what 
industry did right, here is what the consumers did right.''
    I think all that would be very, very important. And would 
think that that information is out there on somebody's desk 
right now.
    Dr. Hagen. Yeah, I think trying to put our finger on that 
kind of information is really very important too.
    Mr. Kingston. Okay. Thank you. My time is expired.
    Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman. And thank you, 
Dr. Hagen, for being here.

                            H.R. 1 REDUCTION

    In your testimony or that of Mr. Almanza, it points out 
that there are 62 hundred federally-inspected establishments in 
this country that you're responsible for?
    Dr. Hagen. Approximately, yes.
    Mr. Farr. Well, Secretary Vilsack was here, and in trying 
to impress him on the fact that the House had already passed 
H.R. 1, which took our funding levels back to 2008. And 
although people in this town seem to think that that's just not 
a possibility that it will ever get passed, since then we've 
been cutting the federal at $2 billion a week.
    And after today's vote, it will be $8 billion, four last 
time and six this time, $10 billion.
    If you add up the number of weeks left, that's $2 billion a 
week. And the bottom line, you add 30 weeks left, that's $60 
billion. That's H.R. 1.
    And I don't know where in the Administration somebody is 
going to wake up and say there are consequences if we do this. 
And I'm hoping today you might talk about what those 
consequences might be, and with some passion that Mr. Kingston 
just talked about.
    If, indeed, the federal responsibility is to prevent or 
check foodborne illness by all these inspections--we have 62 
hundred federally-inspected establishments, and you pointed out 
what the workforce is. If we cut that budget back, your budget, 
back to 2008 levels, that's a reduction of $88.4 million and 
8.7 percent below the 2010, and $106.8 billion, ten percent 
below the 2011 request.
    You're going to have to furlough a lot of people.
    What's that going to do to those 62 hundred federally-
inspected establishments? I mean, many of them will be 
affected.
    And what's it do--maybe you could share with us, because 
nobody's asked this question--is that as much as the private 
sector may complain about government regulation, they also need 
government inspection for purposes of assuring sort of quality 
assurance, health assurance;
    But they also need that to buy insurance.
    I mean, what's going to happen to the financial--if you lay 
off these inspectors, you can't inspect; facilities come to a 
grinding halt; the financial community pulls back and says, 
``We can't insure you if you're not going to have 
inspections.''
    Could you just discuss how serious this shutdown could be?
    Dr. Hagen. Thank you for your questions, Congressman.
    As I mentioned before, our budget is largely about our 
people. So much so that 80 percent of our budget goes towards 
salary and benefits of our employees, and the vast majority of 
that goes toward our frontline employees.
    And as you point out, those 6,200 establishments cannot 
operate, unless our employees are there, doing their work. And 
their work really matters. And I think that the case that you 
set out demonstrates how much their work matters.
    We're certainly looking at a number of scenarios. We don't 
know exactly what the impact on the industry would be. Each 
scenario that we look at, we look to minimize that impact. But 
the truth is, that this far into the year, there isn't a lot of 
wiggle room there.
    So if we're looking at something like $88 million, that's 
definitely going to affect our personnel.
    In one scenario, we have looked at a furlough lasting more 
than a month for all of our personnel. And that would impact 
every federally-regulated establishment. And we would certainly 
be looking at billions of dollars of economic impact there.
    Mr. Farr. What's it do to the market? I mean, you know 
what--this is all about processing. We grow chickens and 
process them and slaughter them and feed them. There was over 
how many billion, did you say in your testimony of?
    Dr. Hagen. We have 147 million head of livestock in 2010 
and nine billion birds.
    Mr. Farr. Nine billion?
    Dr. Hagen. That's right, sir.
    Mr. Farr. I can't even imagine how many that is a day. But 
it's significant.
    Dr. Hagen. It's very significant. And obviously if our 
slaughter and processing operations aren't working, producers 
don't have anywhere to send their livestock and their poultry.
    So it's a significant impact that we would--
    Mr. Farr. Have you gotten our message out? Because we're 
not hearing from them.
    Dr. Hagen. We're certainly working on trying to examine 
what the true impact to industry would be. We don't want to put 
out numbers that we haven't been able to fully vet and 
consider.
    But I think, you know, the committee is aware of the 
numbers that have been provided to the Hill.
    Mr. Farr. Yeah, the committee is. And I think, you know, 
you have seasoned members on the Appropriations Committee. 
We've been in Congress a long time, and many of us have been in 
other legislative capacities before we even got here.
    But I do think there's a new freshman class that has very 
little public experience, and very little knowledge, frankly. I 
mean, that's really what lack of experience is, is just you 
don't get exposed to these things.
    And I think that the Administration has been very cautious 
about telling the public what the implications are. And this 
stuff is real.
    I mean, before the end of the day, we will have cut $10 
billion out of this year's appropriation. And somewhere it's 
got to affect your Department. And I think in anything, if this 
sort of shockwave that's hit Congress, and this cutting in it, 
it ought to wake up America. And we have a job to do, is we've 
got to redefine what government does.
    I mean, taxpayers are asking, you know, ``Why would, should 
we pay for all these things?'' And I think we owe them an 
explanation. And Congress isn't doing a very good job of it, 
because in many cases the people that are advocating the cuts 
most are the ones that have the least understanding of what the 
impacts are.
    But certainly, those of you in professional roles, I think 
need to be much more articulate on the value of government 
services to industry, and the implications that indeed these 
cuts do matter, that there are consequences.
    Because right now, I think the Administration's dealing 
with, ``Ah, we can just absorb this stuff.'' And it can't.
    You just told us you can't. Vilsack told us you can't.
    I have some other questions next round. Mr. Chairman, thank 
you.
    Mr. Kingston. Thank you, Mr. Farr.
    Dr. Hagen, but aside from furloughs, what else are you 
looking at? And right now, you have not been cut. It is 
possible, though, that HR 1 gets passed in some form, and it 
will impact you.
    But we're not sure right now. But what are your other 
options, besides furloughs?
    Dr. Hagen. Well, Mr. Chairman, Mr. Almanza and I, since the 
beginning of the fiscal year have been engaged in really 
looking at every opportunity to find efficiencies in our budget 
in fiscal year 2011.
    And we've been looking at, you know, non-essential travel, 
we have been making tough decisions about hiring and back-
filling. Things like that.
    And we've been able to realize some efficiencies already in 
fiscal year 2011. I think our fiscal year 2012 budget proposal 
also indicates that we're committed to that as well. You know, 
we're cutting spending in a number of key areas.
    But as I said, when you're talking about a cut the size 
that HR 1 puts forward, that size of a cut, when you're looking 
at the way our budget is structured and the inflexibilities 
that we have there, is not something that we can easily absorb.
    But we'll continue to look for ways----

       HAZARD ANALYSIS AND CRITICAL CONTROL POINT (HACCP) SYSTEM

    Mr. Kingston. Well, let me ask you this. And Mr. Almanza, 
you may be able to answer this well, because I assume you were 
on the line when we passed HACCP. And HACCP was, as you know, 
to take us from carcass to carcass, visual inspection to 
microbial inspection. And the idea it would be far more 
effective, far more scientific, far more objective.
    But it was also an idea that you would not need so many 
veterinarians on the line, but the veterinarian union protested 
any possible suggestion. As I understand it, Dr. Hagen, maybe 
just your COLA is something like $25 million.
    I don't know--I mean, you've got a pretty significant 
payroll there. And HACCP was not supposed to be a dual 
inspection system, as much as a primary inspection system.
    So do we have personnel on the lines that we don't need?
    And I will say this. You know, they're not all saints out 
there. There are some obnoxious veterinarians, who like to 
swing their weight around in some of these plants. You won't 
hear the stories. And that should brother all of us.
    Because I've had plants tell me that. And then they will 
not let me do anything about it, because, you know, ``No, no, 
no. Because we might win the battle and lose the war.''
    But I'd like to hear your opinion on that.
    Mr. Almanza. Well, first of all, the Hazard Analysis and 
Critical Control Point System--HACCP--is not a different type 
of inspection. Basically it took the place of command and 
control. It added a lot of structure to what was back under 
what people used to call ``poke and sniff'' type of inspection, 
which was: The inspector would show up every day and pretty 
much go about his--if he focused on pre-op sanitation, that's 
basically all he did. And he might take asample or two.
    What HACCP did is it laid out a very structured way for 
them to perform inspection, and really removed a lot of the 
conflict between inspection and the industry.
    And so I think that HACCP was very instrumental in 
providing that structure and creating a very streamlined way of 
how inspections should work.
    Now are there inspectors where there shouldn't be? I don't 
think so. In fact, I do believe that HACCP has made us better, 
and PHIS will make us even better, where HACCP has kind of 
actually told us where we needed to be a little bit better.
    So I do hear some of those stories that you mentioned, 
Congressman. And when I hear about those stories, I take action 
against those. And I think in my history as the District 
Manager, I demonstrated that I took swift action. I do not 
condone our inspection personnel being aggressive or swinging 
their weight around.
    Because we need to provide our focus on food safety and 
public health, and those other things don't need to play into 
the picture in how we do inspections.
    Mr. Kingston. Well, my time is up. But I do know that one 
of the reasons this committee pushed hard for HACCP in 1996, I 
believe, was to reduce some of the personnel costs, and put 
this a lot more in the laboratory than in the opinion.
    But I sense that in the Administration, there is some maybe 
fear of unions, or you know, political decisions as opposed to 
strictly management financial decisions, when it comes to the 
inspectors on the line.
    Mr. Bishop.

                       STATE INSPECTION PROGRAMS

    Mr. Bishop. Thank you very much. And greetings to you.
    According to testimony, FSIS regulates intrastate commerce 
through cooperative agreements with the 27 states that operate 
meat and poultry inspection programs conducting reviews of the 
programs to ensure that they are at least equal to the federal 
program.
    FSIS recently released the results of the annual review of 
the state program assessments, and--an on-site review of each 
state program, and determined that all of the states meet at 
least the equal-to standard.
    Are there any states that exceeded the federal standard? 
And of those states which exceeded the federal standard, in 
what specific areas did they do better than the Federal 
Government? And give us any examples of innovation there.
    Dr. Hagen. Thank you, Congressman Bishop.
    I'm sorry that I don't have an answer for you on any 
specific states that exceed the federal standard. But that is 
something that I'd be happy to take back to the Agency and 
provide for you, for the record.
    [The information follows:]

    FSIS determines whether each State MPI Program meets and 
can maintain for a period of 12 months, the mandated `at least 
equal to' standard based on its annual review. FSIS's 
determination is based on a thorough review of the nine 
components of each state's program (statutory authority and 
food safety regulations, inspection, product sampling, staffing 
and training, humane handling, non-food safety consumer 
protection, compliance, civil rights, and financial 
accountability). FSIS does not determine the extent to which a 
program exceeds the `at least equal to' standards.

    Mr. Bishop. Thank you. Thank you.

               AUSTRALIAN MEAT SAFETY ENHANCEMENT PROGRAM

    Recently, FSIS issued a notice that gives a green light to 
privatize inspection of all Australian beef, sheep, and goat 
products that are exported to the United States from Australia.
    The inspection system in Australia removes most of the 
government inspectors from the slaughter land and replaces them 
with company-paid inspectors. And in this country, we imported 
nearly 563 million pounds of red meat products from Australia 
in 2010, making it one of the largest meat exporters to the 
U.S.
    Is this practice consistent with U.S. law that governs 
inspections of imported food, particularly in terms of meeting 
the safety standards that are imposed here in the United 
States?
    And can you tell us if there are any developed countries 
that do not accept the Australian Meat Safety Enhancement 
Program for their countries?
    Dr. Hagen. I'd like to take a shot at a general answer on 
that question and then I'm going to ask Mr. Almanza to provide 
a bit more specifics on the Australia program, Congressman.
    As the committee knows, it is required by law that any 
country that's exporting meat or poultry products to the United 
States has a system that is equivalent to ours and wedetermine 
that equivalency through a rather rigorous process.
    The Australia system that you describe is one that was 
found to be equivalent back in, I believe, 1999 and now they're 
looking to expand the system to a larger sector of the--of meat 
production there.
    So I'm going to ask Mr. Almanza if he might be able to give 
a little bit more specifics about how that system will compare 
to what we have here.
    Mr. Almanza. The system that Australia currently has, I 
went down and took a look at their inspection system and, in 
fact, they still have government inspectors that perform the 
food safety elements of their food inspection system. So they 
have government-paid inspectors and then they also have some 
company employees, most of which are veterinarians, that go 
through a rigorous training program and are recertified on an 
annual basis.
    So when we go and we do an assessment of their system and 
we try to look at the system as a whole and determine an 
equivalency or make an equivalency determination, we look at 
the role of the government inspector and what they provide in 
their expertise of what the system is like.
    So, yes, I do think that it is a different system but it 
meets the equivalency determination that we have for 
inspection.
    Mr. Bishop. Doesn't it lend itself to possible head-turning 
if you got the company people doing the inspections for their 
own company?
    Mr. Almanza. In the system in which I observed, because you 
have government inspectors at the beginning of the process and 
at the--actually, you had three. There was one at the 
beginning, one that was a roving inspector that could oversee 
the entire slaughter-processing part of the system, and then 
one at the end, so I didn't see that.
    Mr. Bishop. You didn't see what?
    Mr. Almanza. Any head turning or anything that would--that 
I would say would lend itself to that.
    Mr. Bishop. Do you think that they knew that you were 
there?
    Mr. Almanza. Oh, absolutely. But I've been in the----
    Mr. Bishop. They were on their best behavior when you were 
there, don't you think?
    Mr. Almanza. Absolutely. But I've been in a few packing 
houses that both knew that I was there and didn't know but when 
you have three government inspectors that are--that have that 
type of oversight in a very small area, I didn't think that 
that was happening.
    Mr. Bishop. That's a lot of beef coming into the country 
and I just question whether or not that's satisfactory.
    I think my time has expired. Thank you.
    Mr. Kingston. I thank the gentleman. Ms. Lummis.

               CONSOLIDATING FOOD SAFETY RESPONSIBILITIES

    Ms. Lummis. Thank you, Mr. Chairman. When I was on the 
Agriculture Committee, it became apparent to me how much 
duplication there is in food safety inspections. I can remember 
in one hearing asking an FDA person if it didn't make more 
sense to move the food portion of FDA into Agriculture and 
allow the current FDA to concentrate on the controlled 
substance prescription drug aspects of its responsibility and 
they nearly had a cow then and there.
    But I noticed that the GAO report makes some 
recommendations in that regard for consolidation and the 
duplication that occurs in food safety. For example, FDA makes 
sure that chicken eggs are safe, wholesome, and properly 
labeled while USDA is responsible for the safety of eggs 
processed into egg products.
    So it does seem that there's some bridges to cross and 
chasms to jump for people who are producing agricultural 
products.
    So my question is this. Which of the four structures for 
consolidation that the GAO report suggests analyzing do you 
think are the most viable? Do you have an opinion on that yet?
    Dr. Hagen. Thank you for your question, Congresswoman.
    My opinion on the issue of consolidation of food safety is 
this. I think that consumers want and deserve a system that 
works and that works consistently to protect their families by 
allowing safe products to arrive on their tables and that when 
things go wrong, that the system is able to respond quickly and 
agilely to take care of those problems and limit the scope.
    So whether we do that through one agency or two agencies or 
multiple agencies, I think, is a valid question for debate, but 
we do need a single purpose and that's to make sure that we're 
protecting American consumers and, you know, the President is 
well aware of this. This is why he started the Food Safety 
Working Group in 2009 to ask what does the system as a whole 
need to be thinking about to be moving forward. Where are the 
gaps? Where are the places that we all need to be doing better, 
and where are the obvious areas for cross collaboration?
    So that's my general opinion on consolidating food safety. 
We need to have a single purpose and we need to do the job the 
American consumers expect us to do.
    In regard to the four specific proposals, no, I wouldn't 
submit an opinion on that today.
    Ms. Lummis. Okay. Do you expect to? I mean, are you 
analyzing it for purposes of prioritizing the options they put 
forward?
    Dr. Hagen. We're not specifically analyzing those four 
options at this point, but what we are doing is working to make 
sure that the system that we have in place for meat andpoultry 
is the best that it can be and that we are collaborating at, you know, 
every and all opportunities with our colleagues at FDA and CDC and 
other agencies that regulate the safety of food.

                       FOOD SAFETY WORKING GROUP

    Ms. Lummis. Is the Food Safety Working Group going to look 
at the GAO suggestions and prioritize it? Is anybody in the 
Administration going to look at the GAO recommendations or is 
it just assumed that the Administration will just see what 
Congress decides to do?
    Dr. Hagen. I'm certain that the Food Safety Working Group 
will be discussing the recommendations.
    Ms. Lummis. How often do they meet?
    Dr. Hagen. We meet approximately once monthly and then 
there are sometimes more frequent meetings in between on 
specific topics.
    Ms. Lummis. Who's there?
    Dr. Hagen. There are a wide range of folks. I am there. 
Mike Taylor from the FDA is there. Beth Bell is the principal 
from CDC, and then there are a number of other people there 
from the Office of Management and Budget and other agencies 
throughout the government.
    Ms. Lummis. So is OMB essentially there because, as the 
White House--so there's a White House umbrella over what's 
being discussed or who's filtering--how's the information 
getting into the White House on this?
    Dr. Hagen. I want to be sure that I'm giving you the 
correct answer, so we can certainly submit more specifics for 
the record, but I believe that through the Domestic Policy 
Council, that's how the information gets into the White House.
    [The information follows:]

    Information regarding the Food Safety Working Group gets to 
the White House through the Domestic Policy Council (DPC), 
which coordinates the domestic policy-making process in the 
White House, supervises the execution of domestic policy, 
offers advice to the President on domestic policy, and 
represents the President's priorities to Congress.

    Ms. Lummis. Okay. May I ask another question?
    Mr. Kingston. Yes.
    Ms. Lummis. I know my time's about to expire. Thanks a lot, 
Mr. Chairman.
    Mr. Kingston. If the three of us are interested in your 
question, you can ask it.

               HAZARD ANALYSIS AND CRITICAL CONTROL POINT

    Ms. Lummis. The next one is, you call it HACCP. Is that how 
the--okay. How does the increase for the HACCP inspections 
relate to the increase in the number of products under your 
jurisdiction? Is there any connection there?
    Dr. Hagen. I'm not sure I understand the question, 
Congresswoman. The increase in HACCP inspections?
    Ms. Lummis. There's--in the budget, there's a $5.5 million 
increase to expand HACCP regulatory sampling----
    Dr. Hagen. For sampling?
    Ms. Lummis. Yeah, yeah.
    Dr. Hagen. Okay.
    Ms. Lummis. Now is my question making sense?
    Dr. Hagen. Yeah. I'm sorry. When you said inspections--
yeah. So the $5.5 million increase is dedicated toward 
improving capacity in actually our laboratory sampling program 
and that's just, you know, pathogens evolve and we need to 
evolve, too, and so we're always looking to how we can add 
capacity when new methodologies need to be brought on.
    We would like to do an additional baseline study. The 
baseline studies are statistically designed to allow us to 
calculate prevalence in certain pathogens in specific product 
classes. It's very useful information for us in setting policy, 
very useful information for the industry as they look to change 
their strategies for control. So that's what that $5.5 million 
increase is about.
    Ms. Lummis. Okay. Thanks, Mr. Chairman, and I do have other 
questions, if we go to another round.
    Mr. Kingston. We will.
    Ms. Lummis. Thanks.
    Mr. Kingston. Mr. Farr.
    Mr. Farr. Thank you very much. I want to follow up with Mr. 
Almanza.
    You came up through the system. You started off in a 
slaughter plant, right?
    Mr. Almanza. Yes, sir.

                      STATE FOOD SAFETY INSPECTORS

    Mr. Farr. I'm just curious because I really want to drill 
down on what the impact would be if we have to start laying off 
these inspectors because this committee and a lotof members 
have--Mr. Kingston has 15 regulated plants in his district. Mrs. Lummis 
has 22 in Wyoming, although you contract with the state to do the state 
inspections.
    So the priority--I mean, I guess the question that nobody's 
asked in Congress is that you don't just have the authority to 
sort of go out and cherry-pick who you want to lay off. It's 
all based on employee regulations and union federal, you know, 
rights of employees.
    So if you're going to have to lay off a lot of people, who 
goes first and what happens to these state contracts? Do the 
federal inspections or federal employees have higher priority 
than state employees?
    Dr. Hagen. Are you asking Mr. Almanza or are you asking me, 
sir?
    Mr. Farr. I'm asking either one of you. It's more of a 
labor-management issue or is it not even made in your 
department? Is it made by personnel somewhere?
    Mr. Almanza. Well, the state inspection is--there's 
different types of state inspection. We have the TA inspection 
which is a Talmadge-Aiken inspection which we fund 50 percent 
of those inspection activities in those establishments. Even 
though they're state inspectors, we fund 50 percent or pay 50 
percent of those.
    Mr. Farr. The state inspectors have all been certified that 
they meet the standards of a federal inspection?
    Mr. Almanza. That's correct.
    Mr. Farr. Because you wouldn't give them the responsibility 
to do that unless they could do the job as well as you can.
    Mr. Almanza. That's correct. But to answer your question 
is, no, we could not cherry-pick. We would have to--it would 
have to be across the board and certainly we have a labor-
management agreement with the union that we would also have to 
adhere to.
    But in order to have that broad of an impact, it would 
pretty much have to be industry-wide and we couldn't say the 
small plants would operate or the large plants would operate. 
It would pretty much be straight across the entire industry.

                       STATE INSPECTION CONTRACTS

    Mr. Farr. And that's what Secretary Vilsack said. It would 
have an impact on the facilities across the board.
    I'm interested in this pecking order with these state 
contracts. Did you say, Mr. Bishop, that there were 22 states 
that have the contracts? So do the federal--you're laying off 
federal employees. What about these state contracts?
    Dr. Hagen. Well, the way that those--they're funded through 
cooperative agreements. As Mr. Almanza said, we fund up to 50 
percent of their operating expenses and the various scenarios 
that we're looking at for large budget impacts, we would 
definitely have an inability to continue to fund those state 
contracts.
    Mr. Farr. So it's up to the state whether they wanted to 
make up the difference or they would have to lay off whatever--
--
    Dr. Hagen. That's fair to say.
    Mr. Farr. Okay. It'd be interesting to get that, what it 
would do across the country, because this gets serious when it 
happens in your own district, you know, not in my backyard.

                      INTERSTATE SHIPMENT PROGRAM

    I have some questions. You have a lot of rulemaking that's 
stuck in OMB or the rules haven't been finished and you're 
behind deadline.
    Do your--what are you doing to try to get those--I have a 
list of them, but I think you know them. I'm just generally 
talking about Federal-State Interstate Shipment Cooperative 
Inspection Program that was due January 1st. It's not done. The 
Salmonella Compliance Guide for Small and Very Small Meat and 
Poultry Establishments that Produce Ready-to-Eat Products that 
was due January 13th, Shigatoxin-Producing E. coli in Certain 
Raw Beef Products that was due January 25th, Not Applying the 
Mark of Inspection Pending Certain Test Results, Test and Hold 
due February 3rd. You're behind on getting those implemented.
    Dr. Hagen. You're correct, Congressman. We do have a number 
of things with the Office of Management and Budget that we 
would like to move through as soon as possible and we continue 
to be in regular contact with them. There are always questions 
about documents that go to OMB. So there's some back and forth 
there trying to get those questions answered and so we're just 
working to move those things through as quickly as we can.
    Mr. Farr. Do you have any--obviously they'll enhance your 
inspection and not having them is is having some problems, I 
would think, because the law's out there requiring that these 
inspections be made.
    Dr. Hagen. Particularly on the Interstate Shipment Program, 
sir, we know that we really want to get that one moved. We are 
behind on that deadline and on the expectation of Congress on 
that issue. So we are optimistic that that will move in the 
very near future.
    Mr. Farr. Okay. I have some equivalency determination 
issues with China and others and I'll ask that the next time 
around.
    Thank you, Mr. Chairman.
    Mr. Kingston. I thank the gentleman. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I'm sorry to be late 
for this important hearing this morning. I had conflicting 
scheduling and as I sit here still do with some of the other 
subcommittees.

                           H.R. 1 REDUCTIONS

    We want to welcome you, Doctor, very warmly to ourcommittee 
this morning and thank you for your testimony. I'm sure others have 
focused on this, but I wondered, you know, when Secretary Vilsack came 
up here, he commented briefly on the impacts of H.R. 1, but we didn't 
get any specific numbers at that time.
    I'm wondering whether earlier in the hearing today you were 
able to provide us with how the proposed cut for H.R. 1 of 
$88.4 million below fiscal year 2010 levels and $60 million 
below the Administration's request for fiscal year 2011, how 
does that actually translate into food safety and your 
important responsibilities?
    Dr. Hagen. Thank you for your question, Congresswoman.
    We have talked some about it this morning. I haven't given 
specific numbers because we're still looking at a number of 
scenarios, all of which we would--in all the scenarios, we 
would aim to minimize the impact on industry. However, since we 
are so largely salaries and benefits in our budget at FSIS, 
over 80 percent of our budget goes to salaries and benefits and 
the vast majority of that goes to frontline salaries and 
benefits, we are very limited in our flexibility in terms of 
what we can do with a cut that is that substantial at this 
point in a fiscal year.
    So we have looked at a number of----
    Ms. Kaptur. And what percent, ma'am, is that of your 
budget?
    Dr. Hagen. That's just under 10 percent. It's probably 
about eight percent of our budget. So it's a big hit to absorb 
without a lot of time to manage it. We're certainly looking for 
every efficiency that we can in our budget but we're very 
concerned about the impact on our workforce that a cut of that 
magnitude would have. An impact on our workforce means an 
impact on the industry that we regulate because the industry 
cannot operate without our mandated presence every day. So 
we're looking at a significant impact to the industry.
    Ms. Kaptur. The amount, $60 million below the 
Administration's request for fiscal year 2011, as you look 
forward to 2012, what budget level are you proposing compared 
to, you know, flat increase/decrease compared to current 
operating?
    Dr. Hagen. So our budget request for fiscal year 2012 is 
actually $7.1 million below the fiscal year 2010 enacted 
budget. That includes $34 million of cuts.
    Ms. Kaptur. I know those couldn't have been easy decisions.

              SMALL SLAUGHTER/MOBILE SLAUGHTER FACILITIES

    I want to just quickly shift to another topic as I have 
time here and that is the issue of small slaughter and mobile 
slaughter facilities. I know that you've been doing some 
identification across the country of places that would possibly 
qualify here but you haven't provided the committee any 
documentation on the details of what is happening or staffing 
devoted to these facilities.
    Do you have any plans to conduct further mobile slaughter 
outreach as you look toward 2012 and identifying some of these 
are probably state-inspected facilities or potentially could 
be? How are you--for instance, in a state like Ohio where we 
have a lot of small producers and they look at you as FSIS, 
what can they expect from you in terms of helping them deal 
with their diminishing slaughter capacity?
    Dr. Hagen. Congresswoman, we're very well aware of the 
importance of small and very small establishments, small and 
very small businesses to this economy and certainly small and 
very small establishments in the meat and poultry sector, and 
to that end we have really launched a number of efforts 
designed to support small and very small establishments.
    We have an entire office dedicated to outreach to plants as 
well as education and that's really mainly targeted at small 
and very small establishments. We do--we have a small plant 
help desk that we launched in 2009, again dedicated 
specifically toward this portion of the sector, and mobile 
slaughter concept is a really exciting concept that allows for 
small producers that may not have access to traditional 
federally-regulated slaughter establishments because of 
distance or other reasons to be able to slaughter their 
livestock and be able to apply that federal mark of inspection 
and it really potentially creates new opportunities for those 
producers. So we're very aware of how important that is.
    We, in 2010, had a number of information sessions that we 
had throughout the country on mobile slaughter, how to get up 
and running, what does this mean, how do you apply for a grant 
of inspection. There are currently eight mobile slaughter units 
operating in the United States. There are none in your 
district, unfortunately, but it's something that we're very 
well aware and I'm certain that we'll be doing some more 
information sessions. We'd love to work with you to help your 
constituents understand how to navigate that system.
    Ms. Kaptur. And where do they go on your website or who do 
they talk to at USDA?
    Dr. Hagen. Well, we'll get that information to your staff, 
Congresswoman.
    [The information follows:]

    Small producers can find information about how to operate a 
mobile slaughter establishment under Federal inspection in the 
following Compliance Guide: http://www.fsis.usda.gov/PDF/
Compliance_Guide_Mobile_Slaughter.pdf.
    In addition, small plants can contact the Small Plant Help 
Desk's toll-free number at 1-877-FSIS-HELP or 1-877-374-7435. 
Staff is available 8 a.m. to 4 p.m. Eastern Time, Monday 
through Friday. Also, we're available 24/7 by e-mail. The e-
mail address is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e577078714d716b6c7d7b5e786d776d306b6d7a7f3079716830">[email&#160;protected]</a>
    Moreover, a producer interested in setting up a Mobile 
Slaughter Unit and wants to start the process would need to 
contact our Office of Field Operations' District Office: http:/
/www.fsis.usda.gov/ContactUs/OfficeLocations&PhoneNumbers/
index.asp to request a Federal Grant of Inspection which is 
required for obtaining Federal meat and poultry inspection from 
FSIS. For Ohio, the District Office is located in Chicago, IL 
at 1919 South Highland Avenue, Suite 115C, Lombard, IL 60148, 
Phone: (630) 620-7474.
    In terms of USDA grant/funding opportunities, Rural 
Development has provided funding for Mobile Slaughter Units in 
the past and your constituents should contact the Rural 
Development State Office and ask to talk to the Business & 
Cooperative Programs Director to discuss available options. 
Ohio's State Office is located in Columbus, Ohio and James 
Cogan is the Director of Business & Cooperative Programs at 
(614) 255-2420. For more detailed information on Rural 
Development in Ohio, you can have your constituent visit the 
following Web site: http://www.rurdev.usda.gov/oh/.

    Ms. Kaptur. All right. Do you have--a regular part of your 
budget then is programmed for that?
    Dr. Hagen. I believe so, yes.
    Ms. Kaptur. All right. Thank you, Mr. Chairman. Thank you 
so much, Doctor.
    Dr. Hagen. Sure. Thank you.

                       CATFISH INSPECTION PROGRAM

    Mr. Kingston. Thank you. And I just want to clarify 
something. You had said $34 million in cuts, but there 
areactually $27 million in increases for a net decrease of about $7 
million. We are very happy about that, but it is not--you know, the 
sentence is not complete, just saying $34 million in cuts.
    And part of that cut comes from the infamous catfish 
inspection program. Do you have a--and you are eliminating 
that. Would that mean that you would like that to go back to 
the FDA and maybe change the definition of Vietnamese Catfish, 
or are we going to open up that----
    Dr. Hagen. Congressman, thank you for----
    Mr. Kingston [continuing]. That kettle of fish? [Laughter.]
    Dr. Hagen. I wish that I had a fish pun to come back to you 
with on that one, but I don't. And you are correct, of course--
--
    Mr. Kingston. Fish around for a while, you will find 
something. [Laughter.]
    Dr. Hagen. Of course, we--and you are correct, we do not 
have a $34 million decrease in our budget request for 2012. 
It's a net decrease of $7.1 million.
    But on the catfish rule, we did not ask for an 
appropriation in the fiscal year 2012 budget. And that is 
simply because we just published the proposed rule last month, 
and there are going to be a lot of comments and questions about 
this. There is going to be a lot of back-and-forth on this. And 
we have a number of public meetings we have planned. And we 
just did not think that we were going to be in a position to 
actually have the program up and running in fiscal year 2012, 
and just did not feel that we should be asking for an 
appropriation to do it.
    We are still working--we have identified all these research 
needs. We are firming up how, you know, the sampling program 
will work, what the baseline studies are going to look like, 
things like that. So it is not that we have forgotten about the 
program, or intend to----
    Mr. Kingston. You do not inspect any other sort of fish, 
correct?
    Dr. Hagen. That is correct, sir.
    Mr. Kingston. Tilapia, for example, is bred domestically.
    Dr. Hagen. That is correct, sir.
    Mr. Kingston. Just like catfish. But you do not inspect it?
    Dr. Hagen. No, we do not.
    Mr. Kingston. I do not know, Mr. Farr, if we should just 
put a rider on the bill, just to see what happens on the 
definition of a catfish, but we will talk about that later.
    And it almost brings me to eggs versus----
    Mr. Farr. Would that be an earmark, Mr. Chairman?
    Mr. Kingston. I do not know. I do not know that definition 
that would fall in.
    And it almost brings me to eggs versus eggshells. But 
before we go there, what I wanted to ask you to do--because Mr. 
Farr and a number of Members have raised the issue of if H.R. 1 
goes through as proposed--and so here are some of my questions.

                        HACCP INSPECTION MODELS

    How many plants were you inspecting in 2008? Because you 
are inspecting 6,200 a day. Do you know what the increase has 
been?
    Dr. Hagen. That is information I want to make sure is 
correct, so let me get that for you for the record, if I will, 
Mr. Chairman--if I can.
    Mr. Kingston. It seems unlikely that the number of plants 
would have increased during this----
    Dr. Hagen. It has not significantly increased.
    Mr. Kingston. So that would be extremely relevant to this 
debate.
    Dr. Hagen. If I can get that information for you for the 
record, though--I do not know the exact number.
    [The information follows:]

    In FY 2008, there were 6,257 establishments in the United 
States.

    Mr. Kingston. I think that would be something we would like 
to know, and any kind of technological changes in the HACCP 
program that has impacted it.
    One of the things I am very interested in is the HIMP 
inspection models in 20 plants. And, as I understand it, itis 
faster for them, it has been more productive, and it has increased food 
safety.
    Dr. Hagen. The HACCP inspection model is currently in 25 
plants. Those plants do run faster line speeds. And yes, Mr. 
Chairman, we have found that the sampling data from those 
plants indicates lower levels of salmonella contamination, 
overall.
    Mr. Kingston. Because that could be something where we 
could all come together and work on something, because there is 
also the unintended consequence of the 25 plants that 
participate in that program have a competitive advantage over 
those who do not.
    And so, we do need to move forward on that. And is that 
being done?
    Dr. Hagen. Well, it certainly--you know, as I have said 
before, we are looking at everything, at the way that we do 
business.
    The first thing, the first question we have to ask is, are 
we protecting public health? Is it based on prevention of 
illnesses? And then certainly, you know, how are we spending 
our dollars, and are we doing this in the most efficient and 
responsible way for the American taxpayer? These are questions 
that we are certainly asking ourselves right now.
    Mr. Kingston. Okay. Well, we are going to encourage you to 
continue asking that.

                   VETERINARIAN SALARIES AND BENEFITS

    Also, in terms of your veterinarians, what is their 
starting salary, and what is their average salary, and what is 
their maximum salary?
    Dr. Hagen. I am not sure if we have that information. That 
sounds like something I would want to get for the record, as 
well. I do not know if we even want to take a crack at that----
    [The information follows:]

    The Public Health Veterinarians employed by the Food Safety 
and Inspection Service work a variety of hours and shifts 
depending on the regulatory coverage requirements at the 
specific plant to which they are assigned. The average salary 
and benefits in FY 2010 was $106,945.13 with salary and 
benefits ranging from a low of $74,631.70 to a high of 
$146,515.20. Our veterinarians are compensated for overtime 
worked at 1\1/2\ their hourly rate.

    Mr. Kingston. And what do they do on their retirement? And 
how many hours a week do they work? And if they get overtime--
and how that package compares to their private-sector 
counterpart. That would be of interest, I think, to us. Because 
it's relevant to this debate and overall efficiency.
    And, okay, so let us talk shell eggs versus egg products. 
And getting back to Ms. Lummis's question--and we have all had 
that question, and the President brought it up in his State of 
the Union, in terms of overlap--but you know what? My time has 
expired. I will leave that out there, but I would like you to 
answer them on my next round.
    Dr. Hagen. Okay.
    Mr. Kingston. So, thanks. Mr. Bishop.

                        TRACEABILITY OF PRODUCTS

    Mr. Bishop. Thank you very much. Let me ask you about 
something more provincial for me. That is tomatoes. In south 
Georgia, north Florida, our tomato growers are still reeling 
from the FDA's salmonella recall a couple of years ago. In 
Georgia alone, our growers lost upwards of $14 million from 
tomatoes that were grown--in some cases already harvested--but 
which they could not sell, because consumers quit buying 
tomatoes on the recommendation of FDA and the CDC, although it 
really was not tomatoes, it was peppers from someplace else.
    Nationwide, growers lost about $125 million from this. And 
under the Food Safety Modernization Act, it authorizes payments 
to producers for future government decisions which ultimately 
prove to be incorrect or ill-founded.
    I certainly am interested in working with you to find a way 
to provide some help for our tomato producers who suffered past 
losses, given the remedial processes and opportunities that are 
set forth in the new legislation. I do not know how we can do 
that, but they are still reeling from that, and still 
suffering.
    Under the new food safety legislation, FDA is required to 
establish, as appropriate, a product-tracing system to get 
information that will improve the capacity to effectively 
rapidly track and trace food that is in the United States, or 
that is offered for import into the United States. How do you 
expect this process to work for imported fruits and vegetables?
    Dr. Hagen. Thank you for your question, Mr. 
Congressman.While FSIS does not have responsibility for the safety of 
fruits and vegetables, we are responsible for the safety of the meat--
--
    Mr. Bishop. Meat.
    Dr. Hagen [continuing]. And poultry. So, while I cannot 
speak specifically to plans about trace-back in fruits and 
vegetables, I can tell you that trace-back, in general, is a 
really high priority for us. This is one of the things that 
we----
    Mr. Bishop. How about meats?
    Dr. Hagen. Excuse me?
    Mr. Bishop. How about the meats?
    Dr. Hagen. Yes, this is something that we have spent a lot 
of time talking about in the Food Safety Working Group. We have 
actually held two public meetings with FDA to look at what are 
the best trace-back systems and traceability methods available 
when things do go wrong.
    Because, as I said, you know, our first priority is to 
prevent harm from ever reaching a consumer's table. But when 
things do go wrong, we need to be able to respond very quickly 
to identify the source of that contamination so that we protect 
consumers, but also so that we can wall off that sector, so 
that there are not producers who are needlessly harmed by being 
lumped in with a group that are at fault.
    So traceability, trace-back, is one of the key priorities 
for the Food Safety Working Group, and it is something that we 
are working very hard on at FSIS, as well.

                        STATE INSPECTION PROCESS

    Mr. Bishop. What is your view of the state role in food 
inspection, particularly given the expectation that continued 
budget reductions, and where the federal inspection footprint 
is largely dependant on your state partners? Are there ways 
that we can more effectively support the state inspection 
process, particularly in the area of training assistance to the 
states?
    Dr. Hagen. I think that the state inspection process is 
very important, and we continue to look for ways that we can 
best support them, not only the state inspection process, but 
also on the other end, the state investigative process. When 
things do go wrong, it is another place where we work very 
closely with our state counterparts. So we very much recognize 
the importance of the States in this process.
    Mr. Bishop. Over the years the Department, as well as the--
and the State of Georgia really have worked together on food 
inspection activity. But given the fiscally restrained 
environment that we are in today, there may be ways to broaden 
and expand that cooperative relationship.
    Our commissioner of agriculture for the State of Georgia 
has expressed an interest in building on our current 
relationship with the Federal Government. Are there any 
thoughts on where we may be able to build on existing 
synergies, or create new synergies, so that perhaps some of the 
overlapping functions with regard to inspection could be 
eliminated, and have a net efficiency, in terms of taxpayer 
dollars, both federal and state?
    Dr. Hagen. Well, without being specific, Mr. Congressman, I 
think that what you lay out is very important. We really do 
need to be--the last thing that we need is needless overlap. 
And I think we do need to be looking for efficiencies and ways 
to partner, and really leverage our presence and our resources 
whenever possible. And I think state inspection is one of those 
areas.
    Mr. Bishop. Is it possible to perhaps formulate some pilot 
programs in states that are willing to participate, and see if 
those pilot programs would be more efficient or be efficient 
enough to perhaps, at some later point, if they work properly, 
expand them?
    Dr. Hagen. Well, that is certainly something that we would 
love to talk more with you about and get your ideas on that, 
sir.
    Mr. Bishop. Thank you.
    Mr. Kingston. Mr. Farr.

                    CHINA EQUIVALENCY DETERMINATION

    Mr. Farr. Mr. Chairman. Are there any updates on the China 
equivalency determination?
    Dr. Hagen. Well, as you know, we--well, maybe you do not 
know this, so I will start again.
    We had a team there in December of last year, looking at 
auditing both the processing and the slaughter establishments 
for China, for poultry. China is not currently eligible to 
export any meat or poultry products to the United States. And 
up until the Agriculture Appropriations Act of 2010, we were 
not able to utilize resources to entertain or consider an 
equivalency agreement for China.
    So, the audit has been complete, and our reviewers are 
still looking at those findings. And there is always some back-
and-forth there after an audit has been complete. And we can 
certainly update you on that, as it goes forward.
    Mr. Farr. How long does it take after the audit is 
complete?
    Dr. Hagen. That can vary. I think that we are probably in 
the finishing stages of looking at those comments.
    There were two separate audits that went on, which makes 
this one a little bit more complicated, because we are looking 
at a determination for slaughter separately than we are looking 
at a determination for processing.

                   BRAZILIAN FOOD SAFETY EQUIVALENCY

    Mr. Farr. In Brazil there is--it seems they have been 
having some difficulty meeting our food safety standards for 
meat products that they export to us. Every couple of years 
there is a major issue where we do not accept their meat 
products for one reason or another. The latest incident 
involved corned beef products that had excessive levels 
ofanimal drug Ivermectin. What is the FSIS doing to ensure that the 
Brazilian food safety system consistently complies with the equivalency 
status that we have accorded it?
    Dr. Hagen. Yes. There were problems with the drug 
Ivermectin in 2010, Congressman, and we delisted a number of 
establishments in May of 2010. There were two recalls for 
products coming in from Brazil in May and June. And Brazil 
actually self-suspended on May 27th.
    FSIS sent a sizeable audit team into the country and was 
there for quite some time, and we did not accept any shipments 
of products coming from Brazil until December 28th of 2010, 
when we were satisfied, through this audit process, that they 
were again able to meet our requirements.
    And specific to this drug, Ivermectin, part of our 
equivalency process is that we do repeat audits of countries. 
So we will be back there again, and looking at what they are 
doing, to be sure that the improvements that they have made 
have been sustained.
    Mr. Farr. Well, the President will be there next week, and 
I hope he is not going to make that any more easier after what 
they have done to us with the dairy fine. We are spending a lot 
of money in that country without--taxpayer money--without any 
benefit out of it, just--Brazil's WTO case.

                           GROUND BEEF RECALL

    You are currently in the process of working with Creekstone 
Farms to recall some 14,000 pounds of ground beef products that 
may be contaminated with E. coli O157:H7. Can you tell us how 
the contamination was discovered, and is there any trace-back 
beyond the plant to find out where the animals got the E. coli?
    Dr. Hagen. We are in the process of that recall. Creekstone 
recalled over 14,000 pounds of ground beef on the 8th of March. 
And the problem was discovered through third-party testing. But 
we would be happy to give you some more specifics about that 
recall.
    [The information follows:]

    One of the firms that Creekstone Farms Premium Beef 
distributed ground beef products to conducted its own 
laboratory testing and found a positive for E. coli O157:H7 in 
that product. Creekstone was able to identify the time and date 
this product was ground and recalled all product that went 
through their grinder which could have been associated with the 
contaminated product.

    Mr. Farr. Are you going beyond the plant, in seeing where 
it was produced?
    Dr. Hagen. We always--we trace back as far as we are able 
to. And I do not have any specifics for you right now on 
exactly where we are on that trace-back. We were able to at 
least determine that Creekstone Farms had a responsibility 
there, and we started there, and then we always try to get 
further back, because, you know, the further back you can get, 
the more consumers you can protect from harm.
    Mr. Farr. Yes. With leafy greens, you go right back to the 
field. So it is--I would hope that you could--with animals, you 
might be able to go back to the producer.
    That is the only questions I have right now. I will submit 
some others for the record.
    Mr. Kingston. Well, thank you, Mr. Farr. This might be my 
last round, too. Mr. Bishop, you need another round?
    Mr. Bishop. No, I am fine.

                           PLANT INSPECTIONS

    Mr. Kingston. Now, unfortunately, we have been joined by 
the gentleman from catfish territory in Mississippi, so I need 
to tell him I already covered the question, but I know he is 
not going to be convinced.
    I did want you to know this. I looked at your testimony, 
or--well, I looked at some numbers that, in 2008, there were 
6,278 plants, and now there is 6,282, a difference of 4 plants. 
Are--so, actually, there is--I have it flipped around. There 
are four less plants today than there were then.
    And the reason why I say this is we do not--you know, each 
side always likes to say the sky is falling--both sides. And I 
think it is very important for us on this, where there is 
bipartisan concern, to make sure that we are really talking on, 
you know, a fact-based level, because we do want to work with 
you on that. And on that regard, by the way, there is 356 
Talmadge-Aiken agreements.
    One of the things I wanted to mention is I visited your 
operation in Athens, Georgia. It is fascinating. And I would 
recommend that all of your labs invite Members of Congress to 
go visit and just spend a few hours with them. Because the work 
that you are doing is incredible, and most Members are not 
exposed to it, particularly people who arenot on this 
committee. You do not need me to tell you how to handle your politics, 
obviously, but it is just something that--I think your plants sell your 
mission so well, your laboratories.
    All right. So you want to talk eggs?
    Dr. Hagen. Let's talk eggs, sir.

                       FOOD SAFETY CONSOLIDATION

    Mr. Kingston. And the GAO report. Talk to me a little bit--
is that something that should be consolidated or changed?
    Dr. Hagen. So you are asking again about whether food 
safety should be consolidated?
    Mr. Kingston. Well, is that an example where it is awkward, 
or does that work fine, as far as you are concerned?
    Dr. Hagen. I do not know that it works fine, Mr. Chairman, 
and with the example in particular. And since that recall, all 
agencies involved have been spending a lot of time talking 
about how do we make that make more sense, and particularly 
since there are a number of agencies that had a presence in 
that plant, and had an opportunity to make observations and to 
make a difference while that was all going on.
    So, that is really where we are focused on after the egg 
recall is, if we are there, how can we kind of leverage our 
presence and help other agencies that are there doing their 
job, whether it is FDA or whether it is FSIS or the 
Agricultural Marketing Service or even OSHA that is there, 
making observations?
    But to your--you know, to the general question about 
consolidation of food safety, I think people have talked about 
this for a long time. As I said earlier, I think that our 
priority needs to be to have a single purpose, that this system 
needs to be seamless to the American consumer. Consumers should 
not have to worry about which agency regulates which product, 
they should just know that the products are safe, and that we 
are doing our best to protect their families.
    I certainly acknowledge that during a time when everybody 
in Congress and everybody across government is looking at how 
do we best spend our resources, that this issue will get more 
attention than it has in the past.
    Mr. Kingston. Okay. Let me give you a couple more for the 
record, and I will yield to Mr. Nunnelee. But I want to ask: is 
industry sufficiently at the table? Because you know, while 
this is a job to many people in the industry, you know, if they 
have one food recalled, sometimes it can be death to their 
plant.
    And so, are they sufficiently at the table working with 
you, and particularly on where there could be overlapped--and 
some efficiencies?
    Dr. Hagen. Yes, you are absolutely right, Mr. Chairman. 
Industry can be impacted by a single recall. That can have a 
tremendous impact on an individual plant or an entire industry, 
and we are certainly well aware of that.
    Although industry is not an official part or member of the 
President's Food Safety Working Group, they have been involved 
in a lot of our discussions and in the listening sessions that 
we have had at the White House. And FSIS will continue to seek 
input from the industry, as we move forward on our policies.

                      INDUSTRY ADVISORY COMMITTEES

    Mr. Kingston. Do you have any kind of industry advisory 
board at any level, on a state level, a district area, or----
    Dr. Hagen. Well, we do not exclusively have an industry 
advisory board. We do have two advisory committees: the 
National Advisory Committee on Microbiological Criteria for 
Foods; and then we have a National Advisory Committee on Meat 
and Poultry Inspection. And in both of those advisory 
committees, the meat and poultry industry are represented.
    As well, there is a group that is advising the Ad Council, 
as we work with them. They are not an advisory committee, but 
they are advising the Ad Council as we move forward with our ad 
campaign about safe food handling, because we think it is 
important to have the industry have some input there, as well.
    Mr. Kingston. Okay.
    Dr. Hagen. So we do not have exclusive boards, but----
    Mr. Kingston. All right. Now, my time is about up. Mr. 
Farr, I am going to submit some questions, but there are a 
couple of them that I know he may be interested in.
    One of them I wanted to get from you for the record. Talk 
to us a little bit about Argentina and how that is going, in 
terms of if you are hooked in with them the way you have been 
involved with Brazil.
    And then, number two, it ties into that on Codex, and your 
leadership in that. I would like to know how that process is 
going.
    And number three, Mr. Farr brought up the idea of dockside 
inspection of cocoa beans. And one of the things that you do on 
imported food is decide--or you inspect some of this food. And 
I would like to know where and when, because it seems like the 
inspection of cocoa beans by the FDA is unreasonable to make it 
dockside because it is not processed on the dock. And the issue 
involves impurities in it. And Mr. Farr brought it up the other 
day, but I would be interested on that--not on cocoa beans, 
because I know they are not your jurisdiction, but on, you 
know, where and when is it appropriate on imported food.
    And then, finally, I would like to know the integrity of 
dog food and pet food in general, because I know that that is a 
voluntary program, that is something that is close to Mr. 
Farr's heart. But you go in and you look at dog food andthere 
are 15 different varieties, and the vets often say you got to use this 
kind and not use that kind. And I was just wondering what--you know, if 
they say they are chicken and rice, are they really chicken and rice? 
Are they chicken, sawdust, and rice, or whatever?
    [The information follows;] 
    [GRAPHIC] [TIFF OMITTED] T6792A.021
    
    Mr. Nunnelee.

                         CATFISH PROPOSED RULE

    Mr. Nunnelee. Thank you, Mr. Chairman. I apologize for 
coming in late. I have had a couple of other things going on. 
And I can follow up with you on the details, but I do want to 
at least go back and talk about the catfish question.
    We like catfish in Mississippi. So you guys have got a 
proposed rule out, but we have not finalized the definition for 
catfish yet. Can you tell me about that?
    Dr. Hagen. That is correct, Mr. Congressman. We have not 
finalized the definition. The proposed rule included two 
alternatives, one that would be a narrower definition, and one 
that would be broader. It turns out defining catfish is far 
more complicated than any of us ever anticipated. There are 
over 3,600 varieties that could be considered catfish. And this 
was something that we thought that it was very important to get 
a really good cross-section of input on. That is why the 
definition was left open in the rule. It will not be left open 
in a final rule, though.
    Mr. Nunnelee. All right. So while this is going on, 
apparently the President's budget request eliminates all 
funding, $15.3 million, for the enforcement of this. Is that 
correct?
    Dr. Hagen. Let me reassure you, Mr. Congressman, that not 
asking for the money is just a reflection of our--of the fact 
that we know that the program will not likely be up and running 
by fiscal year 2012. It took us to this point to get a 
published rule, a published proposed rule. We expect there are 
going to be a number of public meetings. We expect ample public 
comment and input on this proposed rule.
    And, therefore, we did not ask for funding in order to 
implement it, because we do not feel there will be an 
implementation phase in fiscal year 2012. But we remain 
committed to enacting the will of Congress on this. I can 
assure you of that.
    Mr. Nunnelee. So when do you anticipate having the program 
up and running?
    Dr. Hagen. Well, you know, notice and comment rule-making 
can vary. And it depends on the nature of the feedback, and how 
much feedback that we get. So I know that everybody always 
wants specific time lines on these things, and I cannot provide 
that for you today. But we will move through the processes as 
expeditiously as possible.
    Mr. Nunnelee. Can you give me a window?
    Dr. Hagen. Well, I can tell you that we do not think it 
will be up in fiscal year 2012, sir.
    Mr. Nunnelee. Do you think it will be up in fiscal year 
2013?
    Dr. Hagen. I am hopeful, yes.
    Mr. Nunnelee. Okay. All right. Thank you, Mr. Chairman.
    Mr. Kingston. Does the gentleman want to have it inspected 
by FDA?
    Mr. Nunnelee. Absolutely.
    Mr. Kingston. You do? To go back to FDA, and not USDA?
    Mr. Nunnelee. Oh, I thought it was--I am still learning.
    Mr. Kingston. Okay. Well, we will--believe me, when she 
says there is 3,600 varieties of catfish, I think we examined 
at least 3,500 of them, trying to figure out that definition. 
But--and apparently it is the ones that come from Thailand and 
Vietnam that are the biggest issue.
    Mr. Nunnelee. That is right. Those are the ones that we are 
fearful of.
    Mr. Kingston. Well, we feel that same way about Vidalia 
onions, because if you want a good catfish you have to put a 
Vidalia on it, and not a Walla Walla onion. [Laughter.]
     Mr. Farr.
    Mr. Farr. I love origin labels.
    Dr. Hagen, thank you for being here today. It has been an 
interesting discussion.

                      RENDERING PLANTS INSPECTIONS

    I think some--a couple of questions. Do we--does your 
agency inspect rendering plants?
    Dr. Hagen. Do we inspect rendering plants? No, we do not, 
sir.
    Mr. Farr. I mean doesn't dog and cat food come from 
rendering plants, as well?
    Dr. Hagen. I guess the answer is that some of it--yes. And 
the FDA inspects rendering plants, sir.
    Mr. Farr. Right, okay. So all of----
    Dr. Hagen. On a voluntary basis.
    Mr. Farr [continuing]. Pet food is done by FDA? I will ask 
them that question.
    Mr. Kingston. Well, they--excuse me----
    Dr. Hagen. There is a voluntary----
    Mr. Kingston. You have a voluntary program for----
    Dr. Hagen. Right.
    Mr. Kingston [continuing]. For pet food.
    Dr. Hagen. There is a voluntary--at FSIS, yes.
    Mr. Farr. Because I heard that, actually, so many carcases 
get into rendering plants, and then the pet food industry buys 
it. And you--in effect, they are feeding back----
    Dr. Hagen. Well, this sounds like this is something that is 
very important to you, Mr. Congressman, and I want to make sure 
that we get you the correct answer. So if I couldsubmit that 
for the record, I would be happy to do so.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T6792A.022
    
    Mr. Farr. Thank you. I would appreciate that.
    And another thing, Jack, I just want to point out that, you 
know, in these cuts you talk about, that if they had the same 
plants in 2008 that they have now, and therefore they ought to 
be able to live on 2008 budget, the problem is you are asking 
them to do this in the next few months. I mean it is 
essentially then double the effort, you have six months left, 
and so you have to do twice as many--the impact is, like, twice 
the cut. So it is not just going back to 2008.
    But I do think that all of the Administration needs to more 
articulate what the impacts of these cuts are. Because Congress 
has to--we have to make some tough decisions. And if we cannot 
get good answers, it is easy to cut.
    Dr. Hagen. Thank you, Congressman. I will take that 
feedback back to the Department.
    Mr. Farr. Thank you. Thank you, Jack.
    Mr. Kingston. Thank you, Mr. Farr. And we do, again, you 
know, in this sky-is-falling Washington culture, feel that this 
is something that is of utmost importance to both parties, to 
make sure that it is done right and well. So, when some of 
these questions are being asked by one side, it does not mean 
they are not a concern of the other side.
    Mr. Nunnelee. Do you--well, with that, this committee 
stands adjourned, and we certainly appreciate the panel for 
participating today.
    Dr. Hagen. Thank you, sir.

    [GRAPHIC] [TIFF OMITTED] T6792A.023
    
    [GRAPHIC] [TIFF OMITTED] T6792A.024
    
    [GRAPHIC] [TIFF OMITTED] T6792A.025
    
    [GRAPHIC] [TIFF OMITTED] T6792A.026
    
    [GRAPHIC] [TIFF OMITTED] T6792A.027
    
    [GRAPHIC] [TIFF OMITTED] T6792A.028
    
    [GRAPHIC] [TIFF OMITTED] T6792A.029
    
    [GRAPHIC] [TIFF OMITTED] T6792A.030
    
    [GRAPHIC] [TIFF OMITTED] T6792A.031
    
    [GRAPHIC] [TIFF OMITTED] T6792A.032
    
    [GRAPHIC] [TIFF OMITTED] T6792A.033
    
    [GRAPHIC] [TIFF OMITTED] T6792A.034
    
    [GRAPHIC] [TIFF OMITTED] T6792A.035
    
    [GRAPHIC] [TIFF OMITTED] T6792A.036
    
    [GRAPHIC] [TIFF OMITTED] T6792A.037
    
    [GRAPHIC] [TIFF OMITTED] T6792A.038
    
    [GRAPHIC] [TIFF OMITTED] T6792A.039
    
    [GRAPHIC] [TIFF OMITTED] T6792A.040
    
    [GRAPHIC] [TIFF OMITTED] T6792A.041
    
    [GRAPHIC] [TIFF OMITTED] T6792A.042
    
    [GRAPHIC] [TIFF OMITTED] T6792A.043
    
    [GRAPHIC] [TIFF OMITTED] T6792A.044
    
    [GRAPHIC] [TIFF OMITTED] T6792A.045
    
    [GRAPHIC] [TIFF OMITTED] T6792A.046
    
    [GRAPHIC] [TIFF OMITTED] T6792A.047
    
    [GRAPHIC] [TIFF OMITTED] T6792A.048
    
    [GRAPHIC] [TIFF OMITTED] T6792A.049
    
    [GRAPHIC] [TIFF OMITTED] T6792A.050
    
    [GRAPHIC] [TIFF OMITTED] T6792A.051
    
    [GRAPHIC] [TIFF OMITTED] T6792A.052
    
    [GRAPHIC] [TIFF OMITTED] T6792A.053
    
    [GRAPHIC] [TIFF OMITTED] T6792A.054
    
    [GRAPHIC] [TIFF OMITTED] T6792A.055
    
    [GRAPHIC] [TIFF OMITTED] T6792A.056
    
    [GRAPHIC] [TIFF OMITTED] T6792A.057
    
    [GRAPHIC] [TIFF OMITTED] T6792A.058
    
    [GRAPHIC] [TIFF OMITTED] T6792A.059
    
    [GRAPHIC] [TIFF OMITTED] T6792A.060
    
    [GRAPHIC] [TIFF OMITTED] T6792A.061
    
    [GRAPHIC] [TIFF OMITTED] T6792A.062
    
    [GRAPHIC] [TIFF OMITTED] T6792A.063
    
    [GRAPHIC] [TIFF OMITTED] T6792A.064
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
